<html>
<title> - MARKUP OF H.R. 4844 FEDERAL ELECTION INTEGRITY ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          MARKUP OF H.R. 4844
                 FEDERAL ELECTION INTEGRITY ACT OF 2006

=======================================================================

                                 MARKUP

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

           MARKUP HELD IN WASHINGTON, DC, SEPTEMBER 14, 2006

                               __________

      Printed for the use of the Committee on House Administration



                    U.S. GOVERNMENT PRINTING OFFICE
30-283                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                   VERNON EHLERS, Michigan, Chairman
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California
                      Will Plaster, Staff Director
                George Shevlin, Minority Staff Director


      MARKUP OF H.R. 4844, FEDERAL ELECTION INTEGRITY ACT OF 2006

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:11 a.m., in Room 
1310, Longworth House Office Building, Hon. Vernon Ehlers, 
[chairman of the committee] presiding.
    Present: Representatives Ehlers, Mica, Doolittle, Miller, 
Millender-McDonald, Brady and Lofgren.
    Staff Present: Peter Sloan, Professional Staff Member; Paul 
Vinovich, Staff Director; Gineen Beech, Counsel; George 
Shevlin, Minority Staff Director; Charles Howell, Minority 
Chief Counsel; Tom Hicks, Minority Professional Staff; Matt 
Pinkus, Minority Professional Staff; and Janelle Hu, Minority 
Professional Staff.
    The Chairman. Good morning, ladies and gentlemen. The 
Committee on House Administration will come to order. I 
apologize again for the delay. We will proceed with our opening 
statements, both my part and that of the ranking member. We 
presume that we will have a sufficient number here at the end 
of that time. If not, we will call a brief recess until we have 
them. I am sorry that the disruption took place today, but we 
will proceed as best we can.
    First, I would like to advise members of our audience here 
today that all cellular phones, pagers and other electronic 
equipment must be silenced to prevent interruption of our 
business. Thank you very much. I will not have any problem 
complying with that myself, since I lost my cell phone on the 
way to this meeting.
    Today the committee meets to mark up H.R. 4844, the Federal 
Election Integrity Act of 2006. Over the past few months, this 
committee has received testimony from election experts, local 
officials and concerned citizens about the issues raised by 
this bill. We had hearings here in Washington, in Las Cruces, 
New Mexico, and in Phoenix, Arizona on ID requirements and 
voting by noncitizens. All views were represented at these 
hearings, and they gave us valuable insights into the arguments 
for and against the proposals to require voters to show an ID 
at the polls.
    They also revealed some strong disagreements about the 
wisdom of imposing such a requirement. To some, this proposal 
is a simple, commonsense proposal and a necessary safeguard 
against voter fraud. To others it represents a dangerous threat 
to some citizens' abilities to access the polls.
    While that debate may be heated and ongoing in Washington, 
D.C., it seems the American people have made up their mind. A 
recent NBC Wall Street Journal poll showed that 81 percent of 
those surveyed favored an ID requirement for voting. Likewise, 
the bipartisan Carter Baker Commission on Federal Election 
Reform recommended a national voter ID requirement in the 
report they issued last year. While the division on this issue 
may be partisan here in Congress, elsewhere it seems a large 
bipartisan majority has concluded that requiring ID is a 
necessary reform.
    The committee has had H.R. 4844, the Federal Election 
Integrity Act, pending before it since Mr. Hyde introduced the 
bill in March of this year. Today I will offer a substitute 
amendment that makes some changes to the bill but preserves its 
fundamental features, a requirement to prove citizenship and 
present identification to vote in federal elections in the 
United States.
    I want to thank Mr. Hyde for his leadership and his work on 
this important issue and thank him also for working with us on 
making the changes contained in the substitute. Basically we 
have sought to extend deadlines in oursubstitute to make it 
more functional and easy to implement. The substitute amendment has 
been provided to all committee members. I will now describe its 
provisions.
    The amendment will require presentation of a government-
issued photo ID to vote in federal elections, effective 
November 2008. This extends the effective date of H.R. 4844, as 
introduced, by two years. Though most of the voting public 
already has an ID that can meet this requirement, there is a 
percentage of eligible voters who do not have an ID, so these 
extra two years will give them time to acquire it. To ensure 
that eligible citizens are voting, the amendment will require 
presentation by 2010 of an ID that could not have been obtained 
without providing proof of citizenship. This replaces the 
requirement of proving citizenship at registration with a 
requirement to prove citizenship when obtaining the ID. Once 
obtained, this ID can be used to prove both citizenship and 
identity when voting.
    The Congress has previously enacted the REAL ID Act, which 
will require people to prove their legal status in this country 
to get a real ID. That act has to be implemented by May 2008. 
Citizens will be able to use the IDs they obtain under this 
process to vote in elections starting in 2010 and for all 
elections thereafter. The ID will have to include some 
indication of citizenship so poll workers and other election 
officials will be able to tell that the bearer is a citizen.
    Pursuant to the amendment, those who arrive at the polls 
without an ID will be permitted to cast a provisional ballot. 
These ballots will be counted if the person returns and 
presents to an election official a qualifying ID within 48 
hours. To help those who need, but cannot afford, the ID to 
vote, the amendment requires states to provide them free of 
cost to the indigent, and authorizes federal funds to reimburse 
states for the costs of doing so.
    I think these changes improve the bill and will make it 
easier to implement and easier for citizens to vote. Once 
implemented, we will have an important safeguard in place that 
will enhance the integrity of our system and help restore 
confidence in it. By putting in place procedures that ensure 
that voting is limited to eligible citizens, we can encourage 
participation and increase turnout.
    The experience in Arizona is instructive here. Despite all 
the claims that disenfranchisement would ensue after enactment 
of the proof of citizenship and ID requirements, testimony in 
Phoenix revealed that after they adopted Proposition 200, that 
registration, which required citizenship and ID, went up 15 
percent after the requirement to prove citizenship went into 
effect.
    The fact is, people are encouraged to vote when they 
believe that their vote will count and their vote will not be 
cancelled out by an illegal vote.
    I know there will be some who oppose the action we will 
take today, and there will be some controversy generated by the 
proposal. I wish it were not so. It seems we should be able to 
agree that voting should be limited to citizens of the United 
States, because that has been the law for years. If we can 
agree on that, we should be able to agree that our voting 
systems must have procedures in place to ensure it. We should 
all be able to agree that every eligible citizen should be able 
to vote, to vote only once, and to be assured that their vote 
will not be diluted by an illegal vote. If we agree on that, we 
should be able to agree that making people identify themselves 
when they vote is a simple and necessary safeguard.
    Some members have told me that the ID requirement is too 
much trouble. But every day, millions of Americans show a 
picture ID to pay by check, to board an airplane, to buy 
alcohol or tobacco. Surely the sanctity of the ballot warrants 
as much protection as these other activities. Our voting rights 
are too important to rely on an honor system. We need to make 
sure we have procedures in place that protect the right to vote 
and make sure only eligible citizens are able to do so.
    I hope all Members will recognize the need for these 
necessary reforms. They will advance the security of our 
electoral systems, increase confidence in their integrity and 
reduce the opportunities for fraud.
    At this time I am pleased to recognize the Ranking Member, 
Ms. Millender-McDonald for her opening statement.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0283A.001
    
    [GRAPHIC] [TIFF OMITTED] T0283A.002
    
    [GRAPHIC] [TIFF OMITTED] T0283A.003
    
    [GRAPHIC] [TIFF OMITTED] T0283A.004
    
    [GRAPHIC] [TIFF OMITTED] T0283A.005
    
    [GRAPHIC] [TIFF OMITTED] T0283A.006
    
    [GRAPHIC] [TIFF OMITTED] T0283A.007
    
    [GRAPHIC] [TIFF OMITTED] T0283A.008
    
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and good morning to you and to all of our guests here this 
morning. This committee has previously conducted a number of 
hearings to gather input on the question of imposing a Federal 
proof of citizenship requirement in order to vote. Those 
hearings documented, among other things, that the imposition of 
such a proof of citizenship requirement would adversely impact 
millions of American citizens. Those impacted include the least 
among us, the elderly, disabled, the poor and ethnic 
minorities. And it would clearly have a disproportionate impact 
on women and many college students.
    Such a requirement would impose new and costly burdens and, 
in many cases, insurmountable obstacles on American citizens 
trying to exercise their constitutional right to vote.
    Now, I am not speaking about illegal immigrants here, 
because there are laws prohibiting such persons from voting. I 
am speaking about the burden on American citizens. Many 
Americans could be affected by this provision. Former Election 
Assistance Commissioner Ray Martinez testified before this 
committee that his 86-year-old World War II veteran father was 
born on a rural ranch in Texas, far away from hospitals, far 
away from birth certificates and far away from documentary 
proof of citizenship. He could be denied the right to vote if 
this becomes law, even though he has legally voted in every 
election that the commissioner could remember.
    Moreover, in order to comply with his State's new photo ID, 
Representative Ike Skelton was not permitted to use his 
government-issued congressional ID to obtain a State-issued 
non-driver ID to vote. Instead, Congressman Skelton was told he 
needs a passport or a birth certificate in order to acquire a 
non-driver ID. I am concerned that the very same card that may 
be used to vote in the legislature on this floor in Congress 
does not satisfy identification requirements in Mr. Skelton's 
State.
    During the hearings, it became apparent that the need for a 
proof-of-citizenship requirement is not documented by studies 
or by empirical data, but rather by anecdotal information. Even 
those who came before us during the hearing of Mr. Hyde's bill 
admitted that they had no quantitative data to support their 
argument.
    The Nation's electoral process is not perfect. There are 
millions of American citizens who are affected by the 
misallocation of voting machines, the inconsistent treatment of 
provisional ballots, the many types of registration obstacles, 
the illegal purging of voting rolls and so on. These are real, 
documented problems which should be commanding our attention.
    Yet, without validation that voting by noncitizens is a 
significant problem, we are investing our legislative resources 
on legislation, which, in my view, constitutes the classic 
solution in search of a problem. Such legislation as the Voting 
Rights Act, the Motor Voter Act, the Uniformed and Overseas 
Citizens Absentee Voting Act, HAVA, Help America Vote Act, and 
other Federal laws are intended to expand and enhance citizens' 
constitutional rights to vote. But we are starting down a new 
path, one which erects obstacles to citizen participation, all 
in the name of addressing a conceived problem, which is the 
result of an abject failure by this Congress and another 
attempt to distort the real issues.
    Let me be perfectly clear. Anyone who breaks the law by 
attempting to register to vote illegally should be prosecuted 
to the full extent of the law. And we have adequate laws in 
place today to address this concern.
    However, partisan attempts to burden our Nation with 
troublesome proof of citizenship requirements are not the 
direction our committee, this country, or anyone should be 
heading. This committee should focus on ensuring that all 
Americans who are eligible to vote are able to do so without 
having to wait for many long hours to cast a vote, an 
unforgivable scene we witnessed in Ohio just 2 years ago.
    Further, this committee should be concentrating on ways to 
ensure all Americans that their ballots will be fully accounted 
for and their votes will be accurately counted. The Congress 
and this committee should be addressing these real voter 
issues, electoral fraud perpetrated on Americans, voter 
intimidation, threats, misinformation and other forms of voting 
suppression that are still disenfranchising American citizens 
today.
    As we heard from witnesses at our June hearing and read in 
the letters submitted by concerned civil rights and other 
organizations, there will be many unfortunate and unavoidable 
consequences if the proposed identification barrier is enacted. 
The American Association of Retired People, AARP, stated that, 
and I quote, ``that new State laws and implementing rules will 
significantly limit opportunities to register or to vote. Many 
persons who are qualified to vote but do not have ready access 
to documents such as birth certificates, driver's license and 
passports, that never have been deemed necessary in the past, 
may lose their fundamental right to vote.'' End of quote.
    Mr. Chairman, I ask unanimous consent that the AARP letter 
to the Committee on House Administration, dated June 27, 2006, 
be made part of the record of this markup.
    The Chairman. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0283A.009
    
    [GRAPHIC] [TIFF OMITTED] T0283A.010
    
    The Chairman. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you. The question of 
citizenship was addressed and extends the the Help America Vote 
Act wherein Congress mandated that mail-in registration forms 
include a box that asked the question, Are you a citizen of the 
United States of America? If your answer is no, your form is 
automatically rejected. If your answer is yes, and you are 
discovered not to be a citizen, you are subject to Federal 
prosecution. Penalties are stiff, and have successfully served 
as a deterrent to misrepresentation. Noncitizens would be 
foolish to risk up to 5 years in prison and deportation to cast 
an illegal ballot.
    Instead of wasting our citizens' time and hard-earned money 
in creating unnecessary obstacles to the ballot box, the 
Congress should be about strengthening and enforcing our 
existing laws before adding new and unnecessary laws to the 
books. Minorities and the elderly are particularly at risk of 
disenfranchisement because they are less likely than other 
citizens to have the other required documentation. For example, 
many of the elderly do not have birth certificates because they 
were born during a time when children were born at home and 
their births were not recorded by a governmental agency. In 
numerous studies, a larger percent of African American adults 
reported that they lack a passport or birth certificate, 
compared to the percentage of all adultssurveyed.
    Some have suggested that the populace could use a passport 
as proof of citizenship. However, according to the State 
Department, only 23 percent of Americans possess a passport, 
and the cost of obtaining one is nearly $100. This amount may 
not sound like much to us folks here in Washington, but my 
constituents, who often struggle to pay for housing, medicine, 
and gas to drive to work, would find this additional and 
unnecessary expense excessive.
    Requiring a government-issued photo ID to register and vote 
is not the answer either. As for U.S. citizens born overseas, 
obtaining the necessary citizenship documents costs hundreds of 
dollars, all to address an unsubstantiated fear that 
noncitizens are affecting the outcome of Federal elections.
    Instead of erecting additional barriers which suppress 
citizen participation, we must strengthen voting rights and 
work to get the 40 percent of already registered voters who did 
not participate in the last election to become active 
participants. Our efforts should be spent on enfranchising 
voters and revitalizing our democracy, not erecting new 
barriers by requiring citizenship documentation. Our time, 
energy and resources should go to addressing the rampant 
intimidation tactics that continue to surface with each new 
election cycle.
    Mr. Chairman, I believe that voter fraud is wrong. But we 
should not punish every American, especially the elderly, the 
disabled or the poor, from expensive or overly burdensome 
requirements that address a so-called noncitizen voting 
strawman, which do nothing to increase civic participation.
    As I have done in the past, I will continue to fight to 
make our voting system as good as it can possibly be, free of 
flaws and defects. But in doing so, I will also fight against 
the imposition of unnecessary burdens and obstacles to 
registration and to voting, as well as policy, which will 
result in the suppression of our citizens' right to vote.
    We are missing the boat today with this misguided 
legislation instead of working to promote the rights of 
American citizens to vote. I look forward to working with you, 
Mr. Chairman, and other members to achieve this goal. Thank you 
Mr. Chairman.
    The Chairman. Thank you for your statement.
    I am willing to consider other statements if you wish, but 
in view of the time I would hope you would keep them brief if 
anyone wishes to offer any. I see none, so we will proceed with 
the discussion.
    The Chair asks unanimous consent that H.R. 4844 be 
considered as read and open to amendment at any point. Without 
objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0283A.011
    
    [GRAPHIC] [TIFF OMITTED] T0283A.012
    
    [GRAPHIC] [TIFF OMITTED] T0283A.013
    
    [GRAPHIC] [TIFF OMITTED] T0283A.014
    
    [GRAPHIC] [TIFF OMITTED] T0283A.015
    
    [GRAPHIC] [TIFF OMITTED] T0283A.016
    
    [GRAPHIC] [TIFF OMITTED] T0283A.017
    
    The Chairman. The Chair now offers an amendment in the 
nature of a substitute and asks unanimous consent that it be 
considered as read. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0283A.018
    
    [GRAPHIC] [TIFF OMITTED] T0283A.019
    
    [GRAPHIC] [TIFF OMITTED] T0283A.020
    
    [GRAPHIC] [TIFF OMITTED] T0283A.021
    
    [GRAPHIC] [TIFF OMITTED] T0283A.022
    
    [GRAPHIC] [TIFF OMITTED] T0283A.023
    
    [GRAPHIC] [TIFF OMITTED] T0283A.024
    
    [GRAPHIC] [TIFF OMITTED] T0283A.025
    
    [GRAPHIC] [TIFF OMITTED] T0283A.026
    
    [GRAPHIC] [TIFF OMITTED] T0283A.027
    
    The Chairman. Is there any discussion on the Chairman's 
amendment in the nature of a substitute?
    Ms. Millender-McDonald. Mr. Chairman.
    The Chairman. Yes. The Chair recognizes the gentlewoman 
from California.
    Ms. Millender-McDonald. Just a few questions on your 
amendment to--your substitute amendment to the bill. There were 
some questions that I wanted to raise. I have noticed that you 
are asking that each State establish a program to provide photo 
identifications. Are we suggesting that we impose an unfunded 
mandate here?
    The Chairman. I would have to ask you to clarify that. We 
do provide that the federal government will reimburse any 
states that incur any expense in the process of providing a 
proof of citizenship and preparing a photo ID.
    Ms. Millender-McDonald. So are we reimbursing the States 
with the funding that is imposed through your authorization in 
the appropriation here on--it is line 23, part 7, you are 
asking for the authorization of appropriations.
    Now, is this, again, Mr. Chairman, different from the 
appropriation that is already in place where there is an $800 
million shortage of funding already for the EAC? Or is this an 
additional appropriation request?
    The Chairman. I am not aware of an $800 million 
shortfallfunding for the EAC. But in any event, this follows the same 
pattern as I mentioned earlier. States require photo identification for 
a number of functions, even buying cigarettes, and this continues in 
that same pattern, saying if you vote, you must provide a photo ID. 
Certainly the right to vote is far more important than the right to buy 
cigarettes. And I am not sure what unfunded mandate you could be 
referring to, other than one we have paid for in this bill, which is to 
aid citizens in establishing their citizenship and getting proof of 
citizenship.
    I might also mention that the REAL ID Act, which has 
already passed into law, does provide many of the same--carries 
many of the same provisions.
    Ms. Millender-McDonald. I suppose what I was referring to 
in terms of the appropriation that was found in your section 
297(a) was--I referred to the Title II funding grants, to 
States under HAVA, and that is the shortage that is still 
pending before the Congress.
    The Chairman. Under HAVA, yes.
    Ms. Millender-McDonald. But this appropriation is in 
addition to that.
    The Chairman. That is correct.
    Ms. Millender-McDonald. Okay. Thank you, Mr. Chairman.
    Ms. Miller. Mr. Chairman.
    The Chairman. I am pleased to recognize the gentlewoman 
from Michigan, Ms. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I certainly 
appreciate your leadership on this issue. I think it is really 
an important issue. And, you know, so many places around our 
Nation have had experiences with fraudulent voting practices, 
and the Help America Vote Act, I think, went a long way to 
negating many of them.
    But as you know, Mr. Chairman, we had a recent example in 
Michigan, actually in our last mayoral race in the city of 
Detroit, where the incumbent, Kwame Kilpatrick, and the 
challenger was Freeman Hendricks--and Freeman Hendricks called 
for, after the election, he called for a photo identification 
in very strong terms, and a number of people in the city of 
Detroit were calling for photo identification there.
    It was interesting because, actually at that time the city 
of Detroit had 637,000 registered voters, but the unfortunate 
thing was the U.S. Census actually said that Detroit only had 
630,000 people that were eligible to register to vote. So the 
new city clerk has done a number of things in the city of 
Detroit. But I point that out. I thought that was a very 
interesting experience that our State had gone through.
    And also, in light of the fact that several years ago, 
actually John Engler was still the Governor at that time, I 
forget exactly what year, the State legislation passed a piece 
of legislation requiring photo identification in Michigan. It 
has been held up because of a previous Attorney General's 
opinion that said it was unconstitutional. But it is currently 
before our Michigan Supreme Court where all the expectations 
are a favorable ruling that the legislation is constitutional.
    I think it is very, very important that we operate on any 
kind of election reform in the true spirit of bipartisanship. 
And I do believe that this piece of legislation meets those 
standards, particularly when you think of the fact that one of 
the--actually the Baker Commission on Federal Election Reform, 
which was obviously a very bipartisan group, did issue a 
recommendation as part of their findings that we should have. 
The Federal Government should pass and all States should have a 
photo identification, and that it be required in order for them 
to vote. It would be just a huge deterrent, I think, on voter 
fraud that, unfortunately, we do see in some instances still.
    And I think, Mr. Chairman, I certainly want to tell you how 
much we appreciate your perfecting legislation here. I think 
your amendment has some very, very good improvements to the 
legislation, particularly ensuring, as was just debated here 
and discussed here, that any individual that could not afford 
an ID, either a driver's license or a State identification 
card, a voter registration card, what have you, that one be 
provided for them. I think this certainly negates any argument 
about the possibility of the concept of a poll tax or what have 
you.
    And I also want to appreciate that you have taken full 
advantage, I think, in your mark here about the identification 
requirements that this Congress passed in regards to the REAL 
ID Act. And that, of course, has--is going to go a very long 
way to making sure that the breeder identification document 
that is utilized to be issuing driver's licenses, State 
identification cards, what have you, that the individual States 
are going to be able to be certain that those persons are who 
they say they are. And so I very much look forward to 
supporting your amendment and the amended version of this bill 
as well. Thank you.
    The Chairman. Thank you for your comments. I recognize the 
gentlewoman from California.
    Ms. Lofgren. I just had a couple of quick questions for 
clarification. I think I know the answer, but I want to make 
sure. In your substitute, wouldn't it be true that the 
requirement for the photo ID would be imposed without regard to 
appropriations, but that reimbursement would be subject to the 
appropriations process?
    The Chairman. I am not quite sure what you are getting at.
    Ms. Lofgren. Well what I am getting at is that we would be 
requiring States to implement the ID system. We are authorizing 
the payment, but we are not the Appropriations Committee. If 
the Appropriations Committee does not appropriate, the mandate 
would go forward without funding.
    The Chairman. But normally the appropriators do follow up 
on authorizations.
    Ms. Lofgren. That has not been my experience.
    The Chairman. On a situation like this, where----
    Ms. Lofgren. Reclaiming my time, on the affidavit 
opportunity that is present in HAVA, isn't it correct that in 
your amendment that the affidavit that allows an American 
citizen who does not have--cannot obtain documentation--to 
swear under penalty of perjury that they are a U.S. citizen and 
then proceed, would be repealed because those underlying 
documents would have to be provided within 48 hours?
    The Chairman. Well, clearly the amendment, as the original 
bill, requires a proof of citizenship. This is not a new idea. 
It has been around a long time. There are states, especially, 
most recently, Arizona, which has passed this requirement. It 
has been implemented. It has to be reviewed in the courts, but 
so far the courts have ruled favorably on it.
    What I would envision, if we don't do a bill like this, is 
we are going to have a huge hodgepodge across the nation,where 
every state will pass its own bill. They will not necessarily all be in 
agreement.
    Ms. Lofgren. Well, if I may, and I will have an amendment 
later, but--and I will reserve some further comments for then. 
But I would just note that the right to vote is protected in 
the Constitution. It is serious. We all agree that only 
American citizens have the right to vote. That is not in 
dispute.
    The question is whether we are going to disenfranchise 
people. The right to buy cigarettes is not in the Constitution. 
The right to drive a car is not in the Constitution. The right 
to board an airplane is not in the Constitution. The right to 
vote is sacred and needs to be dealt with in a way this is 
separate. And I thank the gentleman for yielding for my 
question.
    The Chairman. Any further comments?
    I now recognize the gentleman from Pennsylvania, Mr. Brady.
    Mr. Brady. I just don't understand some things that happen. 
We are trying to have a voter turnout throughout the country 
and in my State of Pennsylvania, and I just can't help telling 
you that this has to hurt and add to voter apathy by making 
them go through another couple steps. Why I say a couple steps, 
when you are born in a hospital and you get a certificate from 
a doctor and you have your fingerprint and your heel print, 
that is not a birth certificate. You have to take that to an 
agency, a State agency, and then get a birth certificate. So 
that is another step.
    First, you have to find that you were born, and then a lot 
of people that weren't born in hospitals have that problem 
getting that piece of paper. And in the State of Pennsylvania 
everybody--a lot of States are different. That then has to go 
to another agency and then they give you a certificate of 
birth. That doesn't have a photo ID on it.
    And the problem I have is--there are a lot of problems that 
I have. And number one, if the election were tomorrow, I 
couldn't be allowed to vote. And I don't have a birth 
certificate and I don't have a passport. And I can't vote. I 
guess I have, to be able to vote for myself in November, well, 
it won't take effect. But if this bill took effect I have to go 
do that. Now I have got the wherewithal to do that, but I'm 
afraid that a whole lot of other people don't. And we are 
putting those people at hardship. And then again we are making 
it harder for people to vote. I like to make it easier for 
people to vote.
    And the other thing I guess, I guess maybe it is the 
larceny that I have in me from time to time. Just because 
somebody shows proper ID of a person doesn't mean that that is 
that person. And I think that anybody that wants to vote and 
will vote and is going to vote that may not be a citizen, may 
not be registered but wants to vote for a person because they 
have the--whatever reason they want to vote for --and they are 
not the person they say they are, I don't think any kind of 
piece of paper can stop that. I don't think that that 
automatically says because I have a piece of paper saying that 
I am Joe Jones that I am Joe Jones. I think people do do things 
and can do things and a piece of paper doesn't necessarily stop 
fraud, stop voter fraud.
    In the State of Pennsylvania we have a law. You have to 
have identification for the first time you vote. But you don't 
have to have it--we vote every 6 months--you don't have to have 
it every time you vote after that. You may have to have it 
again if you are voting in another polling place, for whatever 
reason, in case you move and you had to reregister. But you 
don't just show it every single time. And it does cause 
problems. It causes lines and it has--and it does turn people 
away.
    And in this country, in the State of Pennsylvania, in the 
great city of Philadelphia where I am from, we like to try to 
allow people, make it easier to make them vote. And in my 
opinion this is making it harder.
    Thank you Mr. Chairman.
    The Chairman. I thank you. And I would simply observe, many 
states have different practices. And we have had children in 
California and Michigan. In both cases the birth certificate 
was sent to us without having to go and acquire it. I don't 
want to get into a lengthy argument about the comments that you 
have made, because I know we are going to have amendments and 
we will have to debate those as well. Are there any other? The 
gentlewoman from Michigan.
    Mrs. Miller. Thank you, Mr. Chairman. Just very briefly. I 
appreciated the gentleman from Pennsylvania's comments. I 
respectfully have a differing view of what this piece of 
legislation could actually do, because having been a former 
secretary of state and done everything that we possibly could 
to encourage voter registration, in fact, in Michigan, we 
actually are the genesis of Motor Voter. It actually happened 
in the State of Michigan. And as a result of that, we had 
always in the 90 percentile, depending. Some years 89 percent, 
sometimes 93, 94 percent of every person in the State who was 
eligible to vote registered to vote. We were doing voter 
registration drives at every community college and every 
university and everywhere we could think about to make sure 
people were registered to vote.
    And yet, for whatever reason, we never got any more 
participation in Michigan than what the national average was 
usually. So there are a number of reasons that people in the 
elections industry don't understand why people won't exercise 
that most important franchise, their right to vote. And we all 
want to encourage people to vote. I think one of the reasons 
that they perhaps won't vote, particularly younger people, is 
because they read these stories about voter fraud or what have 
you. And then they think that their vote won't count or they 
are not certain that we are ensuring the integrity of the 
system. And I do believe actually by passing this piece of 
legislation, we could encourage additional voter participation.
    Thank you very much Mr. Chairman.
    Ms. Millender-McDonald. Mr. Chairman.
    The Chairman. Yes. I recognize the ranking member.
    Ms. Millender-McDonald. Just kind of piggybacking on what 
the gentlewoman has said out of Michigan. When you have 
headlines like this, in yesterday's Washington Post, ``Some 
Voters Left Exercising Only the Right to Vent.'' When you say 
why is it, you don't understand why a lot of folks do not vote. 
They come up against those issues, in the case yesterday in 
Maryland, ere there were many voters who went to vote and they 
were surrounded by this inoperable electronic voting machine; 
in addition to that, a dwindling supply of back up paper 
ballots.
    And in addition to that, they had these cards, Mr. 
Chairman, that were presented to voters to vote, and they were 
supposed to vote with these cards, and yet those cards were not 
available at the time they came to vote.
    So there are many people, many voters, who become veryweary 
of those real issues that we are talking about, that are impeding 
voters from going to the polls and actually casting the vote, to vote. 
These are the issues that I am talking about that should be commanding 
our attention, and not anything that would be subjected to further 
voter disenfranchisement.
    And, Mr. Chairman, I do have an amendment to the amendment 
in the nature of a substitute when you are ready for me.
    The Chairman. If there is no more discussion? Are there 
other amendments?
    Ms. Lofgren. Mr. Chairman, on your amendment, if I could 
just briefly make a point that I neglected to make. And that is 
just on the whole overall issue of birth certificates. And I 
won't mention the name of the staff person, but it recently has 
come to my attention that a staff person who I know here on the 
Hill, he is a victim of ID theft. The perpetrator of the ID 
theft went to a southern State, obtained this guy's birth 
certificate with the stolen ID information, used that birth 
certificate to obtain a driver's license, and this staffer 
found out when he started getting, you know, credit check 
information because he was buying things, because he is getting 
credit cards based on you know, the credit history he had 
established.
    So having--there has been no evidence in any of the 
hearings I have seen that people are either sneaking into the 
country to vote or stealing ID to vote, but certainly there is 
no guarantee that a birth certificate means the person is who 
they are. So I just think it is important to put that in the 
context of the world we live in here today. And we all are 
aware of the ID theft problem, and I want to make that point in 
the discussion of the overall bill. And I thank the gentleman 
for recognizing me.
    The Chairman. If there is no more discussion, are there any 
amendments to the Chairman's amendment in the nature of a 
substitute?
    Ms. Millender-McDonald. Mr. Chairman, I would like to offer 
an amendment to the amendment in the nature of a substitute.
    Mr. Mica. Mr. Chairman, reserving the right to object.
    The Chairman. The Chairman reserves the right to object. 
You may proceed to offer your amendment.
    Ms. Millender-McDonald. Thank you Mr. Chairman. Mr. 
Chairman, I offer my perfecting amendment to your amendment in 
the nature of a substitute to H.R. 4844. And what this 
amendment does, the amendment improves voter access to the 
polls, prevents election fraud and supports election integrity.
    My amendment, the purpose of this amendment is, one, to 
establish uniform standards for the treatment of provisional 
ballots; number two, clarifies criminal penalties for voter 
fraud under the Help America Vote Act; and three, provides to 
the States additional fraud prevention methodology.
    The purpose of section 2 is to ensure that every eligible 
provisional ballot in a Federal election is counted after 
election officials review the computerized statewide voter 
registration list to determine that the individual is eligible 
to vote either at the polling place at which the individual 
casts the vote or at any other polling place in the State.
    Section 3. The purpose of this section is to criminalize 
the practice of falsifying information regarding an 
individual's eligibility to vote or misleading citizens as to 
the time, place, or manner of voting in a Federal election.
    The purpose of section 4 of the amendment is to codify a 
Federal court decision that HAVA matching requirements are 
intended as an administrative safeguard, not as a restrictive 
provision on voter eligibility.
    And the purpose of section 5 is to provide States an 
additional option to be used to prevent so-called voter fraud 
through the use of indelible ink or means to ensure voter 
identification. This method is cost effective simply because it 
will relieve our elderly disabled and minority voters of the 
excessively burdensome polling place identification 
requirements.
    And that is my amendment to the amendment in the form of a 
substitute, Mr. Chairman.
    The Chairman. I thank you for the amendment. Unfortunately, 
it is a lot of material to absorb in a few seconds here. But I 
would say that I would certainly be interested in reviewing 
those, but I at the moment do not wish to have them 
incorporated into the amendment in the nature of a substitute 
without having an opportunity to study it in detail.
    Are there other comments? And perhaps you would like to 
just----
    Mr. Mica. Mr. Chairman, if there are no comments, I wanted 
the committee to have time to review whether the amendment was 
in order, and that can't be determined at this time. But I will 
withdraw my objection and call the question on the amendment.
    The Chairman. The question is called. All those in favor of 
the amendment will vote aye. Those opposed will vote no.
    Ms. Millender-McDonald. I ask for the yeas and nays, Mr. 
Chairman.
    The Chairman. The yeas and nays are requested. The Clerk 
will call the roll.
    The Clerk. Mr. Ney.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. No.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    [No response.]
    The Clerk. Ms. Miller.
    Mrs. Miller. No.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender McDonald. Yes.
    The Clerk. Mr. Brady.
    Mr. Brady. Yes.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Yes.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. No.
    The Chairman. The Clerk will give the tally.
    The Clerk. Three ayes, four nays.
    The Chairman. There being three ayes and four nays, the 
amendment fails. Are there any further amendments?
    Ms. Lofgren. I have an amendment.
    The Chairman. I recognize the gentlewoman from California.
    Mr. Mica. Reserving the right to object, Mr. Chairman.
    The Chairman. The gentleman from Florida reserves the right 
to object.
    Ms. Lofgren. Mr. Chairman, this amendment would do an 
important thing. It would provide that the Chairman's measure 
would not take effect until the Election Assistance Commission 
did two things: conducts a study on the anticipated impact of 
the amendment on voter participation, and that would not be a 
problem because the Chairman's implementation date has been 
extended, and clearly the Commission could finish a study in 
the time frame available; and secondly, and probably most 
importantly, submits a report to Congress on the study which 
concludes that the implementation of the amendment will not 
disproportionately affect voter participation by the elderly, 
the disabled and members of racial minorities.
    Now, I believe that this is an essential amendment for a 
couple of reasons. I did, along with other members of the 
committee, have a chance to participate in the hearing in this 
room last June. That was very helpful. I also had a chance to 
go to the hearing in Las Cruces, New Mexico. I will say this: 
that there was very thin or no evidence of substantial voter 
fraud issues. There was very substantial evidence of the 
disparate adverse impact that a voter ID requirement would have 
on the elderly and on ethnic minorities. I believe that to ask 
the Commission to review this and to report to us as a trigger 
is essential, because if the impact of this legislation would 
be to disenfranchise disproportionately minority voters, not 
only would that be morally wrong, but I believe it was 
unconstitutional.
    I want to talk a little bit about some of the things that 
we learned in these two hearings. I was not able to go to the 
Arizona hearing. As you will recall in June, we reviewed a 
study in one of our northern States that found out that half of 
the African American and Latino men did not have a photo ID in 
Milwaukee; that 97 percent of the students in Milwaukee had 
valid IDs, but their current addresses didn't match their IDs 
because they were students; and that those people would likely 
be barred from voting, even though they are Americans.
    We also heard testimony that I thought was compelling in 
Las Cruces, from the head of the American Immigration Lawyers 
Association, that she had never in all of her experience come 
across a situation where illegal aliens had snuck across the 
border to vote. The illegal aliens are sneaking across the 
border for a job, not to vote. And so this is really a remedy 
for a problem that is minimal, if it exists at all.
    I want to talk also about some of the most compelling 
testimony, I thought, I heard in Los Angeles, and that was from 
Mr. Yazi, representing the Navajo nation. As we know, the 
Navajos, along with other Native Americans, are the original 
Americans. They are brave, patriotic Americans. The Navajos, in 
particular, were the code talkers that we honored here several 
years ago for helping the United States to prevail in World War 
II.
    What Mr. Yazi told us there in New Mexico was that most of 
the Navajos don't have a photo ID. And not only that, they 
can't get a photo ID because they weren't born in a hospital, 
they were born at home; they don't have a State record of their 
birth. He said they can't show proof of residence with an 
electric bill, because they don't have any electricity; and 
they can't show proof of residence with a phone bill, because 
they don't have any phones.
    He further added, Some of us think that if you take our 
picture, it steals our soul.
    Now, no one doubts that the Navajos are Americans. But if 
this bill were to pass, without the assurance of the Election 
Commission that there was no disparate account, we would 
disenfranchise a couple of--100,000 at least members of the 
Navajo nation. That would be morally wrong, and it would also 
be unconstitutional.
    I want to note, as I said earlier, there is no 
disagreement, I think, on any member of this committee that 
only Americans can vote. That is not the argument. The argument 
is, in our efforts to make sure that that is the case, whether 
we are deterring Americans from voting, I will say that there 
is an, effort underway around the United States spearheaded by 
the Republican Party, to institute these voter ID requirements. 
And it looks to me that it is an effort to suppress the votes 
by African Americans and Native Americans in particular.
    The chairman said that 81 percent of voters said they 
favored a voter ID measure. I haven't seen the poll. I am not 
going to argue about the figures. But if 81 percent of the 
voters said we are going to disenfranchise the Navajos, we are 
not going to let those Americans vote, we wouldn't listen to 
that. That is why we need to have the Federal Elections 
Commission do a review of this and not to disenfranchise 
African American voters and native American voters all across 
this country.
    I noted earlier, and I think it is worth mentioning again, 
that a lot of us have--I have a passport. I have a voter ID. 
But I am not so elitist as to believe that my privileged 
position is the position that every other American has.
    My father didn't board an airplane until I was--his first 
airplane ride was to come watch me be sworn into Congress.
    Most Americans don't have a passport. Especially many poor 
people do not have birth certificates. But they are still 
Americans, whether they are poor or not. And I strongly object 
to any effort that would disenfranchise Americans because they 
are poor, because they are black, because they are Native 
Americans. And that is why we must insist that if this were to 
pass, it could only be implemented with an assurance by the 
Elections Commission it does not disadvantage those Americans. 
And I thank the gentleman for yielding for this amendment.
    Mr. Doolittle. Mr. Chairman.
    The Chairman. I yield myself five minutes to respond. And I 
would say first of all, one thing that has always delighted me 
about America and Americans is the incredible can do spirit 
that Americans have. When presented with a problem or a 
difficulty, the first question is, ``how do we resolve this? 
How do we solve it?'' And I am just dismayed at the attitude 
that if we pass this bill, suddenly there is a huge problem 
that we can't solve. I think it is terrible if people are not 
voting now. I would want every possible way to assist them to 
vote. I would not support any bill that would lead to 
disenfranchisement of people. But if there are those who don't 
have proof of citizenship, I think we should help them get it.
    How are they going to collect Medicare Part D benefits if 
they can't prove citizenship? How are they going to get some of 
the other benefits that are reserved for citizens if they don't 
have proof of citizenship? I think it is ourresponsibility to 
help everyone get proof of citizenship. And this bill provides a means 
of doing that, in addition to assuring the sanctity of the vote. So I 
think this is a fallacious argument.
    Now, in terms of the amendment that the gentlewoman has 
offered, I would be very willing to commission a study to 
evaluate, after we implement the legislation, whether or not 
the dire things that she has forecast would take place. But 
asking for the study beforehand, first of all, the result would 
be quite uncertain because you would only be asking if this 
happens, what would you think, rather than it has happened, now 
what do you think? I think it would needlessly delay what we 
are trying to do and certainly would not give the valid 
information you would get after the bill has passed and has 
been implemented.
    I yield back the time. Does anyone seek recognition? The 
gentleman from California, Mr. Doolittle.
    Mr. Doolittle. Well, I do believe this is a serious issue. 
I think we know firsthand from an incident in California that 
it was serious. In fact, this committee has spent a 
considerable amount of time investigating. The task force of 
the committee--I think Mr. Mica was involved in that, as was 
Mr. Ehlers--found a clear and convincing evidence that 748 
invalid votes were cast in that election.
    Now, the election was only decided by a margin of 979 
votes. And State officials further found that over 300 
noncitizens illegally voted in that contest. Three hundred, in 
an election that was decided by less than 1,000 votes. So we 
know we have close elections from time to time. They are not 
all that rare. And I just can't be silent in the 
representations that voter fraud is not a problem. Voter fraud 
is a problem. Security is a problem. And I just, for the life 
of me, can't understand in this day and age why it is a problem 
to require photo ID to vote. That, to me, is an essential and 
is long overdue. And if it is an inconvenience for some people, 
I am sorry. We will try and make the burden as easy as 
possible, but we are in the age that we are in and we face the 
challenges we face. And I, for one, think it is completely 
ridiculous that we aren't requiring the photo ID. And I support 
it and would like to see the legislation move.
    Ms. Millender-McDonald. Would the gentleman yield?
    The Chairman. The Chair recognizes the ranking member.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Ms. Millender-McDonald. The gentleman from California has 
stated that he is, and so am I, adamantly opposed to voter 
fraud. He speaks of 728 invalid ballots at one place of voting, 
300 noneligible ballots at another place.
    Mr. Doolittle. Will you yield for a minute? That wasn't a 
place of voting. That was the total votes cast in the Dornan-
Sanchez race, congressional race, in 1976. The total margin of 
victory by Sanchez over him was 979 votes.
    Ms. Millender-McDonald. Thank you so much for your 
clarification, but what I am getting at is when you talk about 
over 280 million folks in this country, and you speak about 748 
or 300, that is so minimal when we are talking about 
suppression of a majority of the people. Like in the State of 
Georgia, my dear friend, an estimated 40 percent of seniors 
lack identification for voting in the State of Georgia. And 
even our State Department has suggested that there are only 23 
percent of persons who have passports, if passport will be the 
number one identifying factor of the photo identification.
    We must not put laws in place that are going to suppress 
the majority of Americans from voting and having a right to 
vote, and I am afraid this bill does just that.
    And, Mr. Chairman, I support the study that was made by the 
gentlelady of California in her amendment because we need to 
have a study to discern whether or not legislation that we are 
putting on the books will adversely affect an already apathetic 
number of persons who are not voting. They are not going to the 
voting box, they are not casting their ballots, and we continue 
to put these types of onerous pieces of legislation before them 
that will continue to erode the very democracy that we fight 
for in this Congress.
    Mr. Chairman, I have many, many letters that I would like 
to submit to the record, one that I have just received hot off 
the press from members of the Congressional Hispanic Caucus 
opposing H.R. 4844, and I would like to read those others, if 
you will allow me time. I have many more, too, and I would like 
to put on the record----
    The Chairman. Without objection, we will enter those into 
the record.
    Ms. Millender-McDonald. But I would like to have some of 
those organizations identified, Mr. Chairman. So if I can yield 
to the gentlelady with your permission.
    Ms. Lofgren. Read the letters.
    Ms. Millender-McDonald. Mr. Chairman, may I?
    The Chairman. You may proceed.
    Ms. Millender-McDonald. Thank you. We have received letters 
of opposition from the Asian American Justice Center, the 
Hispanic National Bar Association, the League of Latin American 
Citizens, the Mexican American Legal Defense and Education 
Fund, the National Association of Latino Elected and Appointed 
Officials Education Fund, the National Council of La Raza, 
Southwest Voting Registration Education Project, William S. 
Velasquez Institute, the National Urban League, the NAACP 
Washington Bureau, the People for the American Way, the 
Protection and Advocacy, Inc., the League of Women Voters, the 
Liberty Coalition, the American Policy Center, the Fairfax 
County Privacy Council, the Republican Liberty Caucus, the 
Rutherford Institute, the Concerned Foreign Service Officers, 
Common Cause, Velvet Revolution, Cyber Privacy Project, SCIU, 
and the last ones are the Lawyers Committee for Civil Rights 
under the Law. And again, the Democratic Women's Working Group.
    Thank you, Mr. Chairman.
    The Chairman. All of these will be entered into therecord 
without objection. So ordered.
    I now recognize the gentleman from Pennsylvania.
    Mr. Brady. I would like to yield my time to the gentlelady 
from California.
    Ms. Lofgren. Thank you for yielding, Mr. Brady.
    I just want to make a couple of comments because I think it 
is important to put into context what we are doing here today. 
There are a lot of unsubstantiated comments that are made about 
fraud and the like. Everybody is against fraud. That is not the 
question.
    Reference was made to the Dornan-Sanchez race, and I would 
just note that an investigation was made, and Ms. Sanchez was 
elected, was--is certified. So, you know, I don't want to go 
back to that fight because I was a member of the committee, but 
a thorough job was done, and the election was certified.
    The issue here is that there will be people, U.S. citizens, 
true blue Americans, who are going to be disenfranchised if 
this amendment were to become law. I will just mention an 
example. Recently, I think it was a mistake, and obviously the 
administration agreed later, a proof of citizenship requirement 
was put into place for Medicaid recipients, and many of us said 
this is not going to work. There are a lot of very old people 
who don't have birth certificates. They were born at home. They 
don't have driver's licenses because they don't drive. They are 
in nursing homes, and this is going to be a problem.
    Sure enough, all over the United States we came up with 
State health officials saying, we are going to have to throw 
little old ladies with Alzheimer's out of their nursing home 
beds because they don't have a photo ID. We are going to have 
throw people who are on kidney dialysis out of, you know--now, 
true, the Alzheimer victims are probably not going to vote 
anyhow because they are not compos mentis, but there are plenty 
of physically disabled people who are elderly who can not meet 
the requirement.
    It was such a problem that the Bush administration had to 
back off and say we are not going to require that anymore 
because people would die. That same proof is in this bill, and 
it seems to me that if you can't prove your ID to save your 
life, you are not going to be able to prove your ID to vote 
either.
    And the Constitution protects your right to vote if you are 
a U.S. citizen. Being a U.S. citizen is not dependent on being 
born in a hospital. It is not dependent on having a piece of 
paper. It is not dependent on being rich enough to have a 
passport. And so that is the reason why the American 
Association of Retired Persons, hardly a left-wing group, has 
come out against this whole concept. It is why the League of 
Women Voters, certainly a pristine do-gooder group that is 
completely nonpartisan, has come out against this piece of 
legislation.
    And I just have got to say, and this is not personal about 
any members of the committee, but the Republican Party all over 
the United States is pursuing this effort for one reason only: 
A lot of ethnic minorities have woken up to the fact that the 
Republican Party is not on their side. And that is why African 
American voters are being suppressed in vast areas of the 
United States, let us face it. Although it is not a 
requirement, you can do the statistical analysis and find out 
that the Navajo Nation votes Democratic more than it votes 
Republican, and to think that it is an accident that this 
measure would disenfranchise the Navajos, that this measure 
would disproportionately mean that African American voters will 
not be able to cast their votes even though they are U.S. 
citizens, is to be naive, to be foolish.
    It is a felony now to vote if you are not a U.S. citizen. 
If we wanted to do something to reduce any problem about voting 
when you are not eligible, we should enlist the Ad Council to 
put on the air it is a felony to vote if you are not a U.S. 
citizen. That was one of the suggestions made at the Las Cruces 
hearing. I would go along with that, but I am not going to go 
along with disenfranchising elderly, poor, African American and 
Native Americans from their privilege, their honor, their basic 
right to control their government through exercising their 
right to vote.
    And I yield back to the gentleman Mr. Brady and thank you 
for yielding.
    The Chairman. The gentlelady yields back.
    Mr. Doolittle is recognized.
    Ms. Lofgren. Hasn't Mr. Doolittle been recognized already?
    Mr. Doolittle. Is there a rule----
    Mr. Mica. May I be recognized?
    The Chairman. The Chair recognizes Mr. Mica for 5 minutes.
    Mr. Mica. I yield.
    Mr. Doolittle. Mr. Chairman, it is outrageous to hear my 
colleague sit there and assert the Republican Party is 
embarking on a move to suppress the vote of ethnic minorities 
throughout the country. That is blatantly false, and I am not 
going to sit here by my silence and give any credence to that 
assertion. That is ridiculous.
    Ms. Millender-McDonald. Who is presenting the legislation?
    Mr. Doolittle. Let me tell you something. When we have 
fraud, it diminishes all of our right to vote, including ethnic 
minorities, if there is fraud in an election. So we have every 
right to be concerned about fraud, and the instances I am aware 
of--and anecdotally, in urban situations where people have 
voted multiple times which have been documented, it is on the 
Democrat side, not the Republican. But I will admit that sin 
spreads across both parties in terms of individual actions.
    But I just--when we are considering legislation to require 
a photo ID, and we hear inflammatory statements made that the 
Republican Party is out to suppress the votes of racial 
minorities, ethnic minorities, no, that is not true. I will not 
sit here and accept that, and you have no proof of that.
    Mr. Mica. Reclaiming my time as a sinner here, I want to 
just say that this really isn't a partisan issue or 
recommendation. The bipartisan Carter-Baker Commission, former 
President Carter, Democrat, Secretary of State Baker, both very 
distinguished, honorable Americans, and I believe there are 21 
on the Commission, all but three voted for requiring of voter 
IDs. So I think it is pretty unanimous. And the Chairman has 
also indicated that the American people by a large majority, I 
don't--we shouldn't legislate on the basis of polls, but I 
think all you have to do is go out in public today, and they 
are saying, secure our borders, and they also say, secure our 
ballots, and that is what that is about.
    Ms. Millender-McDonald. Will the gentleman yield for a 
second or so?
    Mr. Mica. Possibly exposing myself for minor abuse, I will 
yield.
    Ms. Millender-McDonald. I am sorry?
    Mr. Mica. I said possibly exposing myself to minor abuse, 
because I respect her so much.
    Ms. Millender-McDonald. Only to say that while you cite the 
task force of the Carter-Baker, there was resounding dissent 
brought to bear on that particular issue. So it was not a 
unanimous vote with that.
    Mr. Mica. As I understand, there were 3 dissenting votes on 
the issue out of 21. I may be incorrect but that is my--the 
information I was given. Not exactly resounding.
    I yield back. Thank you.
    The Chairman. All time has expired. The question before us 
is on the amendment to the amendment in the nature of the 
substitute offered by Ms. Millender-McDonald of California.
    Ms. Millender-McDonald. Well, really it was----
    The Chairman. Pardon?
    Ms. Lofgren. Ms. Millender-McDonald's. No.
    Ms. Millender-McDonald. It was my amendment that she 
introduced, so the name should be Ms. Lofgren. Thank you.
    The Chairman. Okay. All those in favor of this particular 
amendment will say aye. Aye.
    Those opposed will say no. No.
    The ayes have it.
    Ms. Lofgren. I would like a rollcall vote, please.
    The Chairman. A request for rollcall has been made. The 
clerk will call the roll.
    The Clerk. Mr. Ney.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. No.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    [No response.]
    The Clerk. Mrs. Miller.
    Mrs. Miller. No.
    The Clerk. Ms. Millender-McDonald.
    Ms. Miller-McDonald. Yes.
    The Clerk. Mr. Brady.
    Mr. Brady. Yes.
    The Clerk. Ms. Lofgren.
    Mr. Lofgren. Yes.
    The Clerk. Mr. Ehlers.
    The Chairman. No.
    The clerk will read the tally.
    The Clerk. Three ayes, four noes.
    The Chairman. The amendment fails.
    Are there any further amendments?
    Hearing none, we will recognize Mr. Mica for the purpose of 
offering a motion.
    Mr. Mica. Mr. Chairman, I move that H.R.----
    Ms. Millender-McDonald. Point of order, Mr. Chairman.
    The Chairman. Pardon me. Back up just one minute. There is 
one amendment we do have to pass first. The question is on the 
Chairman's amendment in the nature of a substitute. Those in 
favor will say aye. Aye.
    Those opposed will say no. No.
    It is the opinion of the Chair, the amendment in the nature 
of a substitute is agreed to.
    Ms. Millender-McDonald. Mr. Chairman, I ask for the yeas 
and nays on that.
    The Chairman. There is a request for the yeas and nays. The 
clerk will read the roll.
    The Clerk. Mr. Ney.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    [No response.]
    The Clerk. Mrs. Miller.
    Mrs. Miller. Aye.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Ehlers.
    The Chairman. Aye.
    The clerk will read the tally.
    The Clerk. Four ayes, three noes.
    The Chairman. The motion carries, and the gentleman's 
amendment in the nature of a substitute is accepted.
    At this point we will once again recognize Mr. Mica for a 
motion.
    Mr. Mica. Okay. Okay. Now I will try that. Mr. Chairman, I 
move that H.R. 4844, as amended, be reported favorably to the 
House.
    The Chairman. The question is on the motion. Those in favor 
will say aye. Aye.
    Those opposed will say no. No.
    Ms. Millender-McDonald. Mr. Chairman, I ask for the yeas 
and nays.
    The Chairman. The yeas and nays will be read.
    The Clerk. Mr. Ney.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    [No response.]
    The Clerk. Mrs. Miller.
    Mrs. Miller. Aye.
    The Clerk. Ms. Millender-McDonald.
    Ms. Miller-McDonald. No.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Ehlers.
    The Chairman. Aye.
    The motion is agreed to and H.R. 4844 is recorded favorably 
to the House. The tally was four ayes, three nays.
    Pursuant to House Rule 10, all Members will have two 
calendar days for the purpose of filing views.
    I ask unanimous consent that Members have seven calendar 
days for statements and materials to be entered into the 
appropriate place in the record. Without objection, the 
material will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's markup. Without objection, so ordered.
    We are pleased to know that we have reported this to the 
floor, and I am sure we will continue to have very interesting 
and thorough discussion of this issue on the floor of the House 
of Representatives.
    Having completed our business for today, the committee is 
hereby adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
